            OIG
            OFFICE OF INSPECTOR GENERAL

                                      Catalyst for Improving the Environment



    Audit Report


            Costs Claimed Under Construction
            Grant No. C530608-03 (Richmond
            Beach) Awarded to King County
            Department of Natural Resources,
            Seattle, Washington

            Report No. 2003-2-00015

            September 23, 2003

.
Report Contributors:                               Robert Adachi
                                                   Lela Wong
                                                   Melinda Burks
                                                   Charles McCollum




      Abbreviations

      A&E          Architectural and engineering
      CFR          Code of Federal Regulations
      EPA          Environmental Protection Agency
      grantee      King County Department of Natural Resources
      Metro        Municipality of Metropolitan Seattle
      OIG          Office of Inspector General
      O&M          Operation and maintenance
      Region       Environmental Protection Agency Region 10
      State        Washington Department of Ecology
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                       OFFICE OF
                                                                                  INSPECTOR GENERAL




                                        September 23, 2003

MEMORANDUM

SUBJECT:       Report No. 2003-2-00015
               Costs Claimed Under Construction Grant No. C530608-03 (Richmond Beach)
               Awarded to King County Department of Natural Resources, Seattle, Washington

               /s/ Robert K. Adachi for
FROM:          Michael A. Rickey
               Director of Assistance Agreement Audits
               Office of Audit

TO:            L. John Iani
               Regional Administrator
               EPA Region 10


At your request, we performed an audit of the costs claimed by King County Department of
Natural Resources for the Richmond Beach project under EPA Grant No. C530608-03. The
project period was from September 30, 1988, to April 30, 1994.

The objectives of the audit were to determine whether:

       •       The costs claimed were eligible for Federal participation in accordance with the
               grant terms and conditions and consistent with 40 Code of Federal Regulations
               35.2250;

       •       U.S. Environmental Protection Agency (EPA) program officials or their delegated
               State representatives, Washington Department of Ecology, have accepted the
               project as accomplishing the objectives of the grant; and

       •       The grantee adhered to the special conditions and fulfilled the material grant
               performance requirements.

This audit report contains findings that describe the problems the EPA Office of the Inspector
General (OIG) has identified and corrective actions the OIG recommends. This audit report
represents the opinion of the OIG and the findings contained in this report do not necessarily
represent the final EPA position. Final determinations on matters in this audit report will be
made by EPA managers in accordance with established audit resolution procedures.
Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 120 calendar days of the date of this report. We have no objections to the further
release of this report to the public. Please refer to the audit report number on all related
correspondence. We will be pleased to provide additional accounting counsel and audit services
which may be required in connection with this report and the implementation of our
recommendations. For your convenience, this report will be available at
http://www.epa.gov/oigearth/eroom.htm.

If you or your staff have any questions regarding this report, please contact Robert Adachi at
(415) 947-4537.
                                     Table of Contents
Independent Auditor’s Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Summary of Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Grantee’s Preliminary Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4



 Appendices
         A         Construction Grant No. C530608-03 Richmond Beach Project
                   Schedule of Costs Claimed and the Results of Audit For the
                   Period September 30, 1988, to April 30, 1994 . . . . . . . . . . . . . . . . . . . . . . . . . 7

         B         Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

         C         Grantee Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

         D         Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   23




                                                                   i
                       Independent Auditor’s Report

We have audited the final “Outlay Report and Request for Reimbursement”, dated March 13,
2000, submitted by the King County Department of Natural Resources (grantee) for the
Richmond Beach project (project) under EPA Grant Number C530608-03 (grant). The
preparation of the outlay report is the responsibility of the grantee’s management. Our
responsibility is to express an opinion on the “Outlay Report and Request for Reimbursement”
based on our audit.

We conducted our audit in accordance with Government Auditing Standards issued by the
Comptroller General of the United States, and the United States generally accepted auditing
standards for “Special Reports”. These standards require that we plan and perform our audit to
obtain reasonable assurance that the costs claimed on the “Outlay Report and Request for
Reimbursement” are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the “Outlay Report and Request for
Reimbursement”. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall claim. We believe that our
audit provides a reasonable basis for our opinion (see Appendix B for additional details on our
Scope and Methodology).

The “Outlay Report and Request for Reimbursement”, was prepared by the grantee to report
costs, and claim reimbursement under the grant. This claim is not intended to be a complete
presentation of the grantee’s revenues and expenses.

In our opinion, except for the costs questioned in Appendix A, the “Outlay Report and Request
for Reimbursement” referred to above present fairly, in all material respects, the eligible costs in
accordance with the terms and conditions of the grant and the applicable Federal and EPA
regulations. Details of our audit are included in the Summary of Results section and in
Appendix A.




                                                      Robert K. Adachi /s/
                                                      Assignment Manager
                                                      Field Work End: January 15, 2003




                                                 1
                Summary of Results

                       Category                     Amount
  Total Costs Claimed as Eligible (Note 1)         $16,681,507
  Less: Costs Questioned (see Appendix A)
          Ineligible                                   403,443
          Unsupported                                        0
          Total Questioned                            $403,443
  Eligible Costs (Note 2)                          $16,278,064
  EPA’s Share of the Eligible Costs (55 percent)
                                                     8,952,935
  (Note 3)
  Less: Cumulative Amount Paid to the Grantee        9,568,241
  Amount Due EPA                                      $615,306


Note 1:        Total costs claimed represent the total amount the
               grantee claimed as eligible for grant participation
               on the final “Outlay Report and Request for
               Reimbursement” submitted to the Washington
               Department of Ecology (State) on March 13, 2000.

Note 2:        The eligible costs represent the total expenditures
               determined to be eligible for grant participation
               (amount claimed by grantee minus amounts
               questioned by Office of Inspector General) in
               accordance with the grant terms and conditions,
               40 Code of Federal Regulations (CFR) 35.2250, as
               well as determinations made by the State.
               Additional details are presented in Appendices A
               and B of this report.

Note 3:        EPA’s share of the eligible costs is computed by
               applying EPA participation of 55 percent to the
               total OIG-determined eligible costs.




                                  2
The State has accepted the project as accomplishing the objectives of the grant. The grantee, in
general, adhered to the special conditions and fulfilled the material grant performance
requirements, with the exception of the requirement of 40 CFR 35.2212, which requires the
grantee to expeditiously initiate and complete the project. The grantee did not award some of the
subagreements within 12 months of this grant award, which resulted in limitation on allowable
costs. This limitation is referred to as construction lag penalty. The construction lag penalty on
these contracts was calculated by the grantee and accepted by the State. The penalty was
included in our computation of the grant eligible costs.


Recommendations

We recommend that the EPA Region 10 Administrator:

       1.      Advise the grantee that the costs questioned of $403,443 are disallowed for grant
               participation.

       2.      Obtain recovery of the $615,306 of Federal funds paid to the grantee in excess of
               the amounts determined to be allowable.



Grantee Response

We issued the grantee a draft report on April 24, 2003. The grantee provided a response on May
27, 2003. A copy of the grantee’s response is included as Appendix C of this report. An exit
conference was held with the grantee on June 19, 2003. The grantee’s position is that $389,450
of the questioned costs should be considered eligible. The grantee also believes that it is entitled
to additional architectural and engineering (A&E) costs (see Appendix A, Note 6). The
grantee’s formal response to our draft report as well as the responses provided through meetings
and correspondence, along with the OIG’s comment, have been summarized in Appendix A.


Background

The grant was awarded on September 30, 1988, to provide Federal assistance of $9,685,270 to
Municipality of Metropolitan Seattle (Metro) for construction of a pump station and pipeline to
transport sewage from Richmond Beach to the Edmonds treatment plant, and a pump station and
pipeline to transport East Edmonds service area sewage to the West Point treatment plant
collection system. The $9,685,270 represents EPA’s 55 percent participation of the eligible
project costs. The grantee is responsible for the remaining costs for the project.

On January 1, 1994, Metro merged into King County. Metro became King County’s Department
of Natural Resources, Wastewater Treatment Division on January 1, 1996. The grantee
submitted the final “Outlay Report and Request for Reimbursement” to the State on March 13,


                                                 3
2000. The grantee emphasized in the letter that it has not received all of the required approval
letters from the State and that the final claim was prepared based on its analysis of the available
documentation.

The State sent a request to EPA Region 10 (Region) for a final audit of the project on June 21,
2000. The State mentioned that the grantee did not provide supporting documentation (e.g., time
cards, diaries, etc.) for costs claimed. The State was also concerned that the grantee revised its
total costs and asserted misinterpretations numerous times. As a result, EPA OIG was requested
to audit the final claim.

To assist the reader in obtaining an understanding of the report, key terms are defined below:

       Costs Claimed           Program outlays identified by the grantee on the final “Outlay
                               Report and Request for Reimbursement”.

       Costs Questioned        Adjustments made by the OIG because the costs claimed are
                               unsupported (not supported by adequate documentation) or
                               ineligible (incurred and claimed contrary to a provision of law,
                               regulation, or grant terms and conditions).




                                                 4
                                                                                  Appendix A

          Construction Grant No. C530608-03
               Richmond Beach Project
  Schedule of Costs Claimed and the Results of Audit
  For the Period September 30, 1988, to April 30, 1994
                                        Costs Claimed    Ineligible
                 Cost Category                                        Reference
                                           (Note 1)        Costs
          Construction Cost
                 W/F40-91                  $235,335       $26,384      Note 2
                 W/F8-90                  5,227,282         (4,502)    Note 3
                 W/F9-90                  9,713,775      (629,469)     Note 4
          Excess Change Order                  174,267    578,801      Note 5
                 Total Construction
                                        $15,350,659      ($28,786)
                 Costs
          A&E Construction Management          529,850    316,348      Note 6
          O&M Manual                           114,971    114,971      Note 7
          Design Allowance                     686,027        910      Note 8
          Total Project Costs           $16,681,507      $403,443




Note 1:   Total costs claimed represents the total amount claimed by the grantee on the
          final “Outlay Report and Request for Reimbursement” submitted to the State on
          March 13, 2000.

Note 2:   Ineligible costs of $26,384 represent the difference between the amount claimed
          by the grantee of $235,335 and the eligible amount of $208,951 as determined
          under 40 CFR 35.2250. Under 40 CFR 35.2250, the EPA will determine the
          allowable project costs based upon the scope of the project, approved change
          orders, and the provisions of 40 CFR, Subpart I, Appendix A.

          Based upon the State’s determination of September 24, 1999, and subsequent
          change order approvals, the eligible costs were determined to be $208,951,
          consisting of base contract and change order amounts of $204,790 and $4,161,
          respectively. Details of our calculations are shown in the following table:




                                           5
                                                Description                           Amount
                         Base Contract
                            Cost Incurred Before Sales Tax                           $246,836
                            Less: Ineligible Plans & Specifications                    (8,877)
                                  Addendum 1 and 2
                                  Ineligible landscaping                              (15,667)
                               Total Eligible Costs                                  $222,292
                            Eligible Costs Based on Design Flows                      198,729
                                 (89.4 percent)
                            Less: Construction Lag (95.24 percent) 1                   (9,459)
                            Add: Sales Tax (8.2 percent)                               15,520
                            Total Allowable Base Contract Amount                     $204,790

                         Change Orders
                            Cost Incurred Before Sales Tax                             $4,517
                            Eligible Costs Based on Design Flows                        4,038
                                 (89.4 percent)
                            With Construction Lag (95.24 percent) 1                     3,846
                            Add: Sales Tax (8.2 percent)                                  315
                            Total Allowable Change Order Amount                        $4,161


               Grantee Response

               The grantee did not concur with the State’s construction lag percent determination
               and believes that the construction lag should be 99.25 percent. The grantee stated
               that in September 1989, within the 12 month period after the grant was awarded,
               bids were received and subsequently rejected for the flow transfer line from
               Richmond Beach to the Edmonds Treatment Plant (Contract W/F 8-90) because
               the bids received were 15 percent over the project budget. The contract was re-
               bid excluding the Deer Creek Crossing section of the work. In order to complete
               the Deer Creek Crossing section of the pipeline, additional design and
               engineering was required. The grantee did not request reimbursement for the
               additional design and engineering since it was ineligible for grant participation.
               The new contract for Deer Creek Crossing (W/F 40-91) was then bid based on
               plans approved by the State in June 1991.




       1
         The construction lag of 95.24 percent was computed by the grantee and submitted to the State
on June 21, 1994. Based on the State’s September 24, 1999, determination, the 95.24 percent was
accepted.

                                                    6
Because the Deer Creek Crossing work was removed from the original pipeline
contract and re-bid as a separate contract, the grantee disagrees with the State’s
construction lag of 95.24 percent against contract W/F 40-91. The grantee’s
position is based on the following:

1)     40 CFR Part 35, Subpart I, Appendix A, Section b(2)(e) - Determination
       of Allowable Costs. This regulation applies to a significant element of the
       project. The Deer Creek Crossing Project was not a significant element in
       the whole transfer project, but a small portion of the pipeline between the
       Richmond Beach Treatment Plant and the Edmonds Treatment Plant.

2)     The completed sections of both the Pipeline Project (W/F 8-90) and the
       Deer Creek Crossing Project (W/F 40-91) were completed within the same
       month. This resulted in the completion of the Pipeline portion of the Flow
       Transfer system as if it was one contract as originally bid in September
       1989.

The grantee believes Contract W/F 40-91 should have the same construction lag
as Contract W/F 8-90 since the work was deleted from Contract W/F 8-90 and
was subsequently completed within the same time frame as contract W/F 8-90.
Contract W/F 40-91 was not a significant element of the whole transfer project.

Based on the 99.25 percent construction lag, the grantee believes the allowable
amount would be $217,750. The $217,750 consists of base contract and change
order amounts of $213,413 and $4,337, respectively. Details are shown in the
following chart:

                              Description                            Amount
         Base Contract
           Eligible Costs Based on 89.4 Percent Design Flows         198,729
           With Construction Lag of 99.25 percent                    197,239
           Add: Sales Tax (8.2 percent)                                16,174
           Total Allowable Base Contract Amount                     $213,413

         Change Orders
           Eligible Costs Based on 89.4 Percent Design Flows            4,038
           With Construction Lag of 99.25 percent                       4,008
           Add: Sales Tax (8.2 percent)                                   329
           Total Allowable Change Order Amount                         $4,337




                                  7
          OIG Comment

          The OIG’s position remains unchanged. The 95.24 percent construction lag was
          calculated and provided by the grantee to the State on June 21, 1994. In their
          June 21, 1994, letter, the grantee stated that the calculation was computed “In
          accordance with the federal regulations concerning project initiation”, and that
          the calculations would be used to determine allowable costs. Presumably, the
          calculations were made to comply with 40 CFR Part 35, Subpart I, Appendix A,
          Section b(2)(e). The 95.24 percent was subsequently approved by the State. No
          revision to the approval was made by the State or the Region.

Note 3:   The grantee claimed $5,227,282, or $4,502 less than the eligible amount of
          $5,231,784. The eligible amount of $5,231,784 was computed based upon the
          State’s eligibility determination and subsequent change order approvals. Details
          of our calculations are shown in the following table:

                                  Description                      Amount
                  Base Contract Amount                            $6,212,971
                  Less: Ineligible Base Contract Amount            (1,137,594)
                          Subtotal                                $5,075,377
                  Add: Change Order Amount                           321,198
                  Less: Ineligible Change Order Amount              (164,791)
                  Total Allowable Construction Costs              $5,231,784


          Grantee Response

          The grantee concurred with the results shown above.

Note 4:   The grantee claimed $9,713,775, or $629,469 less than the eligible amount of
          $10,343,244. The eligible amount of $10,343.244 was computed based upon the
          State’s eligibility determination and subsequent change order approvals. Details
          of our calculations are shown in the following table:




                                           8
                            Description                      Amount
         Base Contract Amount                               $12,246,066
         Less: Ineligible Base Contract Amount (a)           (2,890,115)
                   Subtotal                                  $9,355,951
         Add: Change Order Amount                             1,528,102
         Less: Ineligible Change Order Amount (b)              (540,809)
         Total Allowable Construction Costs                 $10,343,244


        (a)      Ineligible base contract amount of $2,890,115 includes the
                 following items determined by the State on February 22, 1996, and
                 September 24, 1999, to be ineligible for grant participation:

                              Description                        Amount
         Schedule I (Richmond Beach Pump Station)
              Ineligible Amount Based on Design Flows              $750,626
         Schedule II (Lake Ballinger Pump Station)
              Ineligible demolition                                  85,500
              Ineligible landscaping                                139,685
              Ineligible Amount Based on Design Flows             1,520,839
         Construction Lag                                           174,683
              Subtotal Before Tax                                $2,671,333
         Add: Sales Tax (8.19 percent)                              218,782
         Ineligible Base Contract Amount                         $2,890,115


        (b)      Ineligible change order amount of $540,809 included a computer
                 credit of $1,383 ($1,278 plus sales tax of 8.19 percent) questioned
                 under change order number one.

Grantee Response

The grantee did not concur with the costs questioned. The grantee believes the
credit of $1,278 was already included in the ineligible base contract amount of
$2,890,115 determined by the State, therefore, it should not be deducted again in
change order number one. The grantee concurs that the computer equipment is
ineligible for grant participation, and therefore, is not questioning the eligibility of
the costs, only the duplication for the reduction in the price of the computer.



                                       9
          OIG Comment

          The OIG’s position remains unchanged. The ineligible base contract amount of
          $2,890,115 includes only the ineligible demolition and landscaping work, plus the
          applicable design flow percentages and the construction lag penalty. The State’s
          February 22, 1996 letter detailing the items being disallowed did not include any
          computer-related costs. The computer credit was only taken out from change
          order number one as an ineligible cost.

Note 5:   Ineligible costs of $578,801 represent the sum of $174,267 of excess change order
          costs claimed by the grantee, plus the $404,534 in excess of the maximum
          allowable amount under 40 CFR 35.2205(a)(2) calculated in this note .

          According to 40 CFR 35.2205(a)(2), the maximum allowable project costs would
          be:

          •         The allowable cost of the following:

                           a.     The initial award amount of all project subagreements
                                  between the grantee and its contractors;
                           b.     The initial amounts approved for force account work to be
                                  performed on the project;
                           c.     The purchase price of eligible real property;
                           d.     The initial amount for project costs not included in a.
                                  through d., excluding any amounts approved for an
                                  allowance under 40 CFR 35.2025 (i.e., design allowance
                                  under this project) and for contingencies; and

          •         Five percent of the sum of the amounts included above.

          Based on 40 CFR 35.2205(a)(2), the five percent represents the maximum
          allowable change order amount, which is determined to be $743,327. Details of
          our computation are shown in the following table:


                                                           Eligible Base
                                                                            Total Eligible
                      Construction Contract                  Contract
                                                                           Change Orders
                                                              Amount
              Deer Creek Crossing: W/F40-91                   $204,790             $4,161
              Pipeline: W/F8-90                              5,075,377            156,407
              Pump Stations: W/F9-90                         9,355,951            987,293
                     Total Construction Costs              $14,636,118       $1,147,861
              A/E Construction Management                      230,422


                                              10
                                                       Eligible Base
                                                                         Total Eligible
                    Construction Contract                Contract
                                                                        Change Orders
                                                          Amount
           Approved O&M Manual                                     0
           Total Project Costs                          14,886,540
           Limitation Per 40 CFR 35.2205(a)(2)              5 percent
           Maximum Allowable Change Orders
                                                        $    743,327      $   743,327
           Per 40 CFR 35.2205(a)(2)
           Amount in Excess of Allowable Change
                                                                          $   404,534
           Orders Per 40 CFR 35.2205(a)(2)


          Total change order amount determined to be eligible before the five percent
          consideration is $1,147,861, as shown above. Since the maximum allowable
          change order amount under the grant is $743,327, the total eligible change order
          amount of $1,147,861 exceeded the allowable amount by $404,534. As a result,
          total allowable costs should be reduced by $404,534 and not increased by
          $174,267.

          Since the maximum allowable change order amount is five percent of the eligible
          base construction contract amounts plus all other eligible costs under the grant,
          the allowable amount is subject to adjustment in the event the final costs
          questioned during audit resolution varies from those recommended by the OIG.

          Grantee Response

          The grantee does not concur with the amount of eligible project costs used to
          calculate the maximum allowable change order amount. The grantee believes that
          the O&M manual costs of $114,971 and the additional A&E expenses claimed
          should be added to our calculation. See Notes 6 and 7 for details.

          OIG Comment

          The OIG has changed its position since the draft report to incorporate the
          grantee’s responses. The results explained in this note represent the revised
          position of the OIG. Since the O&M manual costs and additional A&E expenses
          the grantee want to include in our calculation are being questioned in this report,
          we can not include them in the calculation of maximum allowable change order
          amount. However, the maximum allowable change order amount is subject to
          change pending the State and EPA’s final determination on the allowability of
          those costs claimed.

Note 6:   Ineligible costs of $316,348 for the A&E construction management fee represent
          the difference between the amount claimed by the grantee of $529,850 and the
          eligible amount of $213,502. The eligible amount of $213,502 was computed

                                            11
based on actual costs incurred by the grantee and the State’s September 29, 1999,
eligibility determination. Details of our computation are shown in the following
table:

                            Description                           Amount
    Total Amount Spent on Amendment 4 (a)                         $420,803
    Less: Ineligible Tasks 612, 613 and Part of Task 614 (a)       (142,407)
            Total Eligible Costs                                  $278,396
    Percent Allocable to Eligible Portion of Project (b)       76.69 Percent
    Total Allowable A&E Costs                                     $213,502


C          The A&E costs shown above represent amounts the grantee paid to the
           A&E firm under Amendment 4 of the contract. The contract between the
           grantee and the A&E firm consists of the basic contract plus seven
           amendments. The State determined that only amendment four of the A&E
           firm contract was eligible for grant participation. The State also
           determined that tasks 612, 613, and part of task 614 were not eligible.

(b)        The maximum allowable A&E percent represents the ratio of eligible
           construction costs to the total construction costs incurred in accordance
           with 40 CFR, Part 35, Subpart I, Appendix A.H.2.h. Under 40 CFR, Part
           35, Subpart I, Appendix A.H.2.h, the allowable A&E cost is limited to the
           amount allocable to the eligible portion of the construction costs under the
           project.

Grantee Response

The grantee does not concur with the State’s determination provided at the time
of grant close out. The grantee’s review and reevaluation of Amendments 6 and 7
revealed that the majority of the costs were for services during construction.
Costs associated with services during construction should be eligible for grant
participation. Page 4 of the State’s letter dated July 2, 2000, stated that “…
Previous staff had determined the work ineligible, based on regulatory
requirements, and Ecology concurred.” To date the grantee has not found any
written documentation from the State regarding ineligibility of Amendments 6
and 7.

The grantee is requesting that Amendment 6 and 7 for A&E services during
construction be reevaluated to determine eligibility for grant reimbursement.

OIG Comment

OIG’s position remains unchanged. The State determined that only Amendment
4 of the contract was eligible for grant participation. No other amendments to the

                                        12
          A&E contract have been approved by the State for grant participation. Any
          redetermination of eligibility would need to be made by the State.

Note 7:   Ineligible costs of $114,971 for an O&M manual consist of the following:

          (a)    Costs of $60,538 claimed in excess of the budgeted amount of $54,433.
                 The State approved the grantee’s O&M manual on August 16, 1994.
                 However, the dollar amount for the O&M manual was not mentioned in
                 the approval letter. Therefore, we assumed the budgeted amount of
                 $54,433 shown in the grant award document was the approved amount.

          (b)    Costs of $54,433 recorded in the grantee’s accounting system as “non-
                 grant eligible” costs. In the draft report, the costs were questioned as
                 unsupported because the grantee could not locate the source
                 documentation to support the costs claimed. Subsequently, the grantee
                 provided documentation to verify the amount claimed to the accounting
                 system. However, the grantee identified the costs as “non-grant eligible”
                 in their accounting system. The amount is questioned to be consistent
                 with the classification of the costs in the grantee’s accounting records.

          Grantee Response

          The grantee’s position is that the entire $114,971 claimed should be eligible. The
          grantee did not believe that any limitation was set on the allowable costs for the
          O&M manual since the approval letter did not specify an amount.

          The grantee also did not concur with the OIG’s interpretation that the costs coded
          as non-grant eligible in its accounting system would be ineligible for grant
          participation. The grantee explained that during the project period, its procedures
          were to code expenditures as grant eligible only when an approval letter was
          received from the State. Since the grantee had not received the necessary
          approval letter during the project construction, the expenditures remained coded
          as non-grant eligible expenditures. The grantee said that as documented by the
          State's approval letters, many approval letters were received well after project
          construction was completed. The grantee further stated that it had requested
          reconsideration for these costs during grant close out and was unable to resolve
          the issue.

          OIG Comment

          OIG’s position remains unchanged. Our results were based on the available
          documentation and is consistent with the grantee’s accounting records. The State
          has not provided additional information on the approved costs of the O&M
          manual. Absent any specific approval by the State or the Region listing the
          eligible O&M manual costs, the amount listed in the grant award document
          represent the total eligible amount. The State has also not stated whether they

                                           13
          accepted the grantee’s explanation for coding expenditures in their accounting
          system and whether the costs claimed of $54,433 were eligible. As a result, the
          balance of the O&M manual costs are being questioned.

Note 8:   Ineligible costs of $910 relating to design allowance represent the difference
          between the amount claimed by the grantee of $686,027 and the eligible amount
          of $685,117 as determined under 40 CFR 35.2025. Under 40 CFR 35.2025, the
          allowance for facilities design of the project is to be determined in accordance
          with 40 CFR Part 35, Subpart I, Appendix B. Appendix B.3 states that the
          allowance is not intended to reimburse the grantee for costs actually incurred for
          facilities design. Rather, the allowance is intended to assist in defraying those
          costs. Appendix B.4 states that the estimated and final allowance will be
          determined in accordance with Tables 1 and 2 of the appendix. Table 2 is to be
          used in the event that the grantee received a grant for facilities planning. Since
          the grantee received a grant for facilities planning (grant number C530608-01
          awarded on June 1, 1976), Table 2 was used in our computations. Appendix B.7
          further states “the final allowance will be determined one time only for each
          project, based on the initial allowable building costs, and will not be adjusted for
          subsequent cost increases or decreases.”

          Based on 40 CFR 30.2025 and 40 CFR Part 35, Subpart I, Appendix B, the design
          allowance was determined to be $685,117.

          Grantee Response

          The grantee concurred with the OIG’s methodology for determining the design
          allowance amount.




                                           14
                                                                                   Appendix B

                           Scope and Methodology
The audit was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States and auditing standards established by the American
Institute of Certified Public Accountants for “Special Reports” (SAS 62). These standards
require that we plan and perform our audit to provide reasonable assurance about whether the
“Outlay Report and Request for Reimbursement” is free of material misstatement. This requires
examining, on a test basis, evidence supporting the costs claimed. We also obtained a sufficient
understanding of the grantee’s internal control structure to determine the nature, timing, and
extent of tests to be performed to reach an opinion on the costs claimed. An audit also includes
assessing the accounting principles used and significant estimates made by management, as well
as evaluating the overall claim. We believe that our audit provides a reasonable basis for our
opinion.

The audit field work was performed between March 1, 2002 and January 15, 2003. We did not
perform any followup of prior audit reports. The following steps were performed to determine
whether costs incurred were eligible for grant participation:

   •   We first reviewed the grant files at EPA Region 10 and the State.

   •   Eligibility was determined using the supporting documentation obtained from the State’s
       grant files:

       <   King County’s construction lag calculations dated June 21, 1994.
       <   The State’s various eligibility determination letters.
       <   State letters describing approval of contract change orders.
       <   Bid approval for each of the construction contracts.
   •   We also visited King County and obtained the following supporting documents:
       <   Final progress payment for each of the construction contracts.
       <   Original claim, along with supporting spreadsheet, King County submitted to the
           State on March 13, 2000.

   •   We reconciled the grantee’s original claim, along with the spreadsheet supporting the
       claim, to Metro’s accounting system reports. This accounting system was eliminated
       when Metro merged with the grantee. Since we were unable to test the controls in the
       system, we assumed maximum control risk.

   •   We verified all progress payments against the payment vouchers and copies of the check
       to confirm actual payment to the contractors. We also verified that no costs were
       incurred prior to the Notice to Proceed date and that all retention amounts were released


                                                 15
       to the contractors prior to the final claim.

   •   The eligible percentages computed by the State based on design flows were applied to the
       eligible base contract and change order amounts. These percentages represent the ratio of
       costs based on design flows and the costs based on existing flows.

   •   The construction lag percentages were then applied to the eligible base contract and
       change order amounts.

   •   Sales tax was added to come up with totals for the contract. The sales tax represents the
       actual average tax rate paid to the contractors. The State of Washington does not have
       sales tax exemption for Government contractors.

   •   The eligible costs for A&E construction management and an O&M manual were then
       computed and added to the total eligible amount for the project.

   •   The design allowance was computed in accordance with 40 CFR, Part 35, Subpart I,
       Appendix B, and added to the final eligible project total.

Control Risks and Criteria

In planning and performing our audit, we considered relevant aspects of the internal control
structure to determine our auditing procedures. For these internal controls, we obtained an
understanding of the relevant policies and procedures during the period of the project.

We did not examine the accounting system because the system utilized during the project is no
longer in existence. Reports generated from the accounting system were used in the verification
of transactions, but no tests of the adequacy of the system were performed. As a result, we
assumed maximum control risk and tested all transactions for verification of payments.

For all transactions tested, we examined the source documents and performed other audit
procedures we considered necessary to gain an understanding of the grantee’s financial
management and contract administration controls. As criteria, we used 40 CFR, Parts 30 and 35;
and Office of Management and Budget Circulars A-87 (Cost Principles for State, Local and
Indian Tribal Governments) and A-102 (Grants and Cooperative Agreements With State and
Local Governments). Our review did not disclose any material weaknesses in the grantee’s
financial management or contract administration systems.




                                                 16
                   Appendix C

Grantee Response




       17
18
19
20
                                                                            Appendix D

                                  Distribution
EPA Region 10

  Office of Management Programs, Grants Administration Unit
  Office of Water, Standards and Planning Unit
  Audit Followup Coordinator
  Office of Communication, Education and Change


Headquarters Office

  Director, Grants Administration Division (3903R)
  Agency Audit Followup Coordinator (2724A)
  Associate Administrator for Congressional and Intergovernmental Relations (1301A)
  Associate Administrator for Communications, Education, and Media Relations (1101A)


Office of Inspector General

  Inspector General


Auditee

  King County Department of Natural Resources, Wastewater Treatment Division




                                          21
